Executive Report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing ServicesGrants to the Waukesha, Wisconsin Police Department
GR-50-00-022June 15, 2000Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Waukesha Police Department (Waukesha PD).  The purpose of the grants is to enhance community policing.  The Waukesha PD was awarded a total of $459,5021  to hire six full-time entry level police officers, and to pay for expenses associated with hiring one veteran under the hiring grant.

We reviewed the Waukesha PD's compliance with seven essential grant conditions.  We found the grantee's budgeting and hiring of officers, local matching funds, retention efforts, and community policing practices to be acceptable.  However, the Waukesha PD's reimbursement request included $2,773 in unallowable and unsupported costs.  We are not questioning these costs because the grantee understated its reimbursement request by about $35,200.  In addition, most of the monitoring reports were inaccurate and untimely.

These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix II. 




Footnote
1. The Waukesha PD received $9,502 under the Troops to COPS program to pay for the expenses associated with the hiring of one veteran under the UHP grant.  At the time of our audit, the Waukesha PD had not expended any grant funds; therefore, we did not audit this grant.